           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

  FOLLOW-UP: THE SOCIAL SECURITY
 ADMINISTRATION’S INTERNAL USE OF
EMPLOYEES’ SOCIAL SECURITY NUMBERS

     June 2008    A-13-07-27164




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      June 9, 2008                                                     Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: The Social Security Administration’s Internal Use of Employees’ Social
           Security Numbers (A-13-07-27164)


           OBJECTIVE

           Our objective was to determine the extent to which the Social Security Administration
           (SSA) implemented the recommendations from our August 2004 report, The Social
           Security Administration’s Internal Use of Employees’ Social Security Numbers.

           BACKGROUND
           The Social Security number (SSN) was created in 1936 as a means of tracking workers’
           earnings and eligibility for Social Security benefits. Nevertheless, the SSN has become
           a de facto national identifier used by Federal agencies, State and local governments,
           and private organizations. The expanded use of the SSN as a national identifier
           provides a tempting motive for unscrupulous individuals to acquire and use it for illegal
           purposes.

           Federal agencies frequently ask individuals for their SSNs because, in certain
           instances, the law requires that they do so. Federal agencies have a responsibility to
           limit the risk of unauthorized disclosure of SSNs. Although no single Federal law
           regulates overall use and disclosure of SSNs by Federal agencies, the Freedom of
           Information Act of 1966, the Privacy Act of 1974, and the Social Security Act
           Amendments of 1990 generally govern disclosure and use of SSNs.

           Our 2004 report contained several concerns about the use of the employees’ SSNs and
           made five recommendations to address these issues. The Agency agreed with all of
           these recommendations. In this audit, we reviewed the extent to which SSA had
           implemented the five recommendations. See Appendix B for a detailed discussion of
           the Scope and Methodology.

           In addition, we reviewed information SSA reported pertaining to the Office of
           Management and Budget’s (OMB) request that Federal agencies, including SSA, review
           their use of SSNs. This request relates to the President's Identity Theft Task Force
Page 2 - The Commissioner


September 2006 interim recommendations. Specifically, the Task Force recommended
that OMB require that all Federal agencies review their use of SSNs to determine
whether such use can be eliminated, restricted, or concealed in agency business
processes, systems and electronic forms. On January 16, 2007, the Agency reported
to OMB how its business processes used SSNs as well as alternatives, vulnerabilities
and safeguards for SSNs. During our review, we examined the accuracy of the
information reported that pertained to Agency employees’ SSNs. See the “Other
Matter” section and Appendix C for the results of our review.

RESULTS OF REVIEW
SSA took corrective action on all recommendations from our August 2004 report, The
Social Security Administration’s Internal Use of Employees’ Social Security Numbers.
In addition, the Agency took other actions regarding the use of its employees’ SSNs.
Below, we discuss Recommendations 1 through 5, the corrective actions taken by the
Agency, and the results of our current review.

   Recommendation 1: We recommend SSA remind employees to secure any
system or document containing employee SSNs when these systems or documents are
not being used.

The Agency responded its Office of Systems Security Operations Management and
Chief Security Officer issue periodic and ad hoc bulletins to SSA employees concerning
systems security matters. Generally, the bulletins focus on systems security issues that
impact a range of users and developers or are applicable Agency-wide. SSA has
established systems security policies and procedures that require a suite of controls
over systems that contain sensitive data, such as SSA clients’ SSNs and employee
SSNs. Therefore, SSA will take steps to ensure managers and staff adhere to the
existing procedures and handling documents associated with administrative activities.

Our current review found the Agency had taken several actions to remind employees to
secure systems and documents that contain employees’ SSNs. On March 28, 2005,
SSA issued the bulletin, Sensitive Information Reminder, which reminds employees to
secure systems and/or documents containing employee SSNs. According to Agency
staff, all policies and procedures related to protecting employees’ SSNs should be
represented in the Information Systems Security Handbook and the Information System
Officer Guide. We reviewed the January 2007 Security Handbook and found it
contained information about handling employees’ SSNs.
Page 3 - The Commissioner


Also, information about handling and securing Personally Identifiable Information, 1
which can include SSNs, has been added to the Agency’s Office of Systems Security
Operations Management's website. We reviewed the website and found it provided
guidance regarding the handling of employees’ SSNs.

    Recommendation 2: We recommend SSA consider using asterisks, if determined
to be cost-effective, to hide the employee SSN on computer screens and reports in all
existing and future systems. Asterisks are currently used in the Mainframe Time and
Attendance System to hide the employee SSN.

SSA responded it would consider the costs and benefits of using asterisks when
developing future enhancements.

During our current review, we examined the 38 automated information systems the
Agency reported as using employees’ SSNs. Of the 38, we found the Agency modified
the computer screen display of employees’ SSNs for 21 systems. Of the remaining 17,
the Agency does not plan to modify the Travel Manager System. The new travel
         2
system, E Solutions, is scheduled to be fully implemented by spring 2009. One aspect
    2
of E Solutions is the ability to mask the entire SSN.

For all 38 systems, Agency staff reported there were mechanisms in place to safeguard
employees’ SSNs. For example, security profiles are used to limit access to only
authorized employees. Access to the systems is also monitored through the use of “in-
line audit systems” that check transactions for improper activity. We verified the
manner in which employees’ SSNs were shown on computer screens to system users
for the 38 systems. After our review, the Agency reported updates to three additional
systems. However, we did not verify the accuracy of this information. See Appendix D
for the results of our review and reported updates concerning the computer screen
display of employees’ SSNs.

  Recommendation 3: We recommend SSA identify the forms that request the
employee’s SSN. If the SSN is not required, eliminate its use on these forms.

In response to our prior audit, SSA stated it would modify internal forms and consider
the continuing need to capture the SSN.

During our current review, Agency staff explained SSA was revising its forms that
requested employees' SSNs. For example, in October 2007, staff reported five of
SSA’s employee-related forms had been modified. These forms were changed to
request the last four digits of the SSN. As of October 3, 2007, we verified certain
Agency forms had been modified concerning the collection of employees’ SSNs. After

1
  OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of Personally
Identifiable Information defines personally identifiable information as information that can be used to
distinguish or trace an individual’s identity, such as their name, SSN, biometric records, etc. alone, or
when combined with other personal or identifying information which is linked or linkable to a specific
individual, such as date and place of birth, mother’s maiden name, etc.
Page 4 - The Commissioner


our review, the Agency reported updates to 11 of its forms. We did not verify the
accuracy of this information. See Appendix E for the forms we reviewed and the
subsequent information reported for the display of employees’ SSNs on SSA’s forms.

   Recommendation 4: We recommend SSA determine if it is cost beneficial to use
an alternative primary identifier for its employees, such as the one used in the On-Line
University 2, for all future SSA systems. If determined to be cost-beneficial, then
implement an alternative primary identifier.

SSA agreed with our recommendation but indicated it was bound by Executive Order
9397 and the Civil Service Commission (now known as the Office of Personnel
Management [OPM]) mandate to use the SSN as the identifying number for Federal
employees. We verified OPM is developing an alternative identifier for all Federal
employees, known as the Unique Employee Identifier (UEID). OPM has not developed
all the UEID business requirements. Once the business requirements are developed,
OPM will need to develop the information technology resources to support Federal
agencies’ use of the UEID.

Based on the planned use of the UEID by Federal agencies, SSA officials reported it is
not financially prudent to develop an SSA-specific alternative primary identifier for its
employees and/or modify its systems at this time. When OPM has implemented use of
the UEID, the Agency can consider the modifications and timeframes required to
implement the use of the UEID in the context of its budget and available resources.

   Recommendation 5: We recommend SSA consider and use, as indicated in
Agency policy, encryption if feasible and not cost prohibitive.

SSA responded it used dedicated lines and Connect Direct when transmitting payroll
information to the Department of the Interior (the example cited in the prior report) and
therefore believed it was in compliance with the policy as written. In our current review,
we verified that SSA payroll information transmitted from the Agency to the Department
of the Interior is encrypted.




2
 SSA implemented SSA GoLearn on April 1, 2005 as a replacement for On-Line University. On
April 1, 2008 SSA Learn was implemented as a replacement for SSA GoLearn.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATION
Based on our observations, examination of data, and discussions with SSA staff, we
believe the recommendations from our prior report have been addressed by the
Agency. SSA had taken action to implement the five recommendations from our
August 2004 report. However, to further protect its employees’ SSNs, we recommend
SSA continue removing or minimizing the use of these SSNs in its systems and forms.

AGENCY COMMENTS
SSA agreed with our conclusion and recommendation. See Appendix G for the full text
of SSA’s comments.

OTHER MATTER

Other Actions Regarding the Use of Social Security Administration
Employees’ Social Security Numbers

During our current review, we examined other SSA actions regarding the use of
employees’ SSNs. On January 16, 2007, SSA reported to OMB how its business
processes used SSNs, as well as alternatives, vulnerabilities and safeguards for SSNs.
We examined the accuracy of the data applicable to the Agency’s use of employees’
SSNs. Based on our observations, review of the data, and discussions with SSA staff,
we believe the information SSA reported to OMB on actions taken and pending
regarding the use of employees’ SSNs was accurate. See Appendix C for the specific
employee-related information systems and forms included in our examination.

In a related matter, on May 22, 2007, OMB issued Memorandum M-07-16,
Safeguarding Against and Responding to the Breach of Personally Identifiable
Information. According to OMB's Memorandum, safeguarding personally identifiable
            3
information in the Government’s possession and preventing its breach are essential to
ensure the Government retains the trust of the American public. In response to the
OMB memorandum, on September 28, 2007, SSA issued its plan to eliminate the
unnecessary collection and use of SSNs. See Appendix F for the excerpt of the plan
that relates to employees’ SSNs collection and use.




                                              Patrick P. O’Carroll, Jr.




3
    See Footnote 1 on p. 3.
                                      Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Response to the Office of
             Management and Budget on the Use of Social Security Numbers

APPENDIX D – Employees’ Social Security Number As Displayed on the Social
             Security Administration’s Computer Screens

APPENDIX E – Social Security Administration Forms: Request and Display of
             Employees’ Social Security Numbers

APPENDIX F – Excerpt: The Social Security Administration’s Implementation Plan to
             Eliminate the Unnecessary Use of Social Security Numbers

APPENDIX G – Agency Comments

APPENDIX H – OIG Contacts and Staff Acknowledgments
                                         Appendix A

Acronyms
OMB    Office of Management and Budget
OPM    Office of Personnel Management
SSA    Social Security Administration
SSN    Social Security Number
UEID   Unique Employee Identifier
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Identified and reviewed applicable laws and regulations.

•   Identified and reviewed relevant Social Security Administration (SSA) policies and
    procedures.

•   Identified and reviewed prior relevant audits.

•   Interviewed SSA personnel responsible for controls over the use of Social Security
    numbers (SSN).

•   Identified and reviewed pertinent SSA employee forms that include SSNs.

•   Identified and reviewed pertinent SSA employee forms that include unique
    identifiers other than SSNs.

•   Determined the Agency’s internal use of SSNs.

•   Observed the safeguards implemented by the Agency.

In addition, we observed the display and use of employees’ SSNs in information
systems, reviewed the display of SSNs on various forms and system-related data, and
interviewed Agency staff. See Appendix C for a list of the information systems and
forms reviewed. Also, we reviewed SSA’s response to Office of Management and
Budget Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
Personally Identifiable Information, as it relates to the unnecessary collection and use
of Agency employees’ SSNs (see Appendix F).

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit was performed between June and October 2007 in
Baltimore, Maryland. The entities audited were the Offices of Human Resources;
General Counsel; Budget, Finance, and Management, Acquisition and Grants; and
Systems.
                                                                               Appendix C
The Social Security Administration’s Response to the
Office of Management and Budget on the Use of Social
Security Numbers
We examined the accuracy of information reported by the Social Security
Administration (SSA) to the Office of Management and Budget (OMB) pertaining to the
use of Agency employees’ Social Security numbers (SSN). In its September 2006
Summary of Interim Recommendations, the President's Identity Theft Task Force
recommended that OMB require that all Federal agencies review their use of SSNs.
Specifically, agencies were to determine whether such use can be eliminated,
restricted, or concealed in agency business processes, systems and electronic forms.

On January 16, 2007, the Agency reported how its business processes used SSNs, as
well as alternatives, vulnerabilities and safeguards for SSNs. We examined the data
applicable to the use of Agency employees’ SSNs. Based on our observations, review
of the data, and discussions with SSA staff, we believe the information SSA reported to
OMB on actions taken and pending regarding the use of employees’ SSNs was
accurate. The following identifies, by business processes, the information systems and
forms we reviewed related to employees’ SSNs.

                Budget, Financial and Administrative Services Process
                                         System/Form Name

                                         Travel Manager System
                                      Travel Credit Card Application
                         Administrative Payments Information Network System
                             Finance Interactive Voice Response System
                        Payments Claims and Enhanced Reconciliation System
                                       Third Party Payment System
                                        Purchase Card Application
                                             Tally Up System 1
                           Suitability Checks for Employees and Contractors
                           Comprehensive Integrity Review Process System
                                            Audit Trail System




1
  The Tally Up System is used to compute the Income Tax Relocation Allowance. SSA reports this
information to the Internal Revenue Service.


                                                C-1
                                    Human Resources Process
                                             System/Form Name

                                   Collection of Time & Attendance Data
                                   Mainframe Time & Attendance System
                                 Transmission of Time & Attendance Data
                                     Job Announcement Status Check
                                               Awards Database
                                Official Personnel Folder Tracking System
                        Performance Assessment and Communications System
                                  Mainframe Grievance Tracking System
                           Human Resource Management Information System
                                      Employee Suggestion Program
                             Employee Assistance Program Client Database
             Equal Employment Opportunity Complaint File/Complaint Form/Counseling File
                   Office of Civil Rights and Equal Opportunity iComplaints Database
                              Reasonable Accommodation Tracking System
                                     Disability Services Team Database
                                    Reasonable Accommodation Wizard
                         SSA-501-F3, Request for Reasonable Accommodation
                          Placement and Full Time Equivalent Pool Databases
                               Training Nomination and Authorization Form
                    Interactive Video Teletraining Online Course Registration Form
                             Interactive Video Teletraining One Touch Logon
                                             Blackboard System 2
                                Career Development Program Application
                                    Official Union Time Tracking System

                               Office of General Counsel Process
                                                 System Name

                                            Salary Overpayments
                                    Equal Employment Opportunity Cases
                                   Merit Systems Protection Board Cases
                                Electronic Freedom of Information Act System
                                   Freedom of Information Act Processes

                                     Office of Appeals Process
                                                  Form Name

                                     In-House Training Registration Form




2
  SSA’s Office of Training’s Blackboard is an on-line application used for registration and student logon for
test taking for entry level courses.


                                                    C-2
                                                                                  Appendix D
Employees’ Social Security Numbers As Displayed on the
Social Security Administration’s Computer Screens
For the following 38 automated information systems, we verified the manner in which
Agency employees’ Social Security numbers were shown on computer screens to
system users.

                            System                                   Display of Employees’ SSNs
 Performance Assessment & Communications System (PACS)                                          Last 4 Digits
 iComplaints                                                                                  Asterisks Used
 Labor Relations Case Tracking System                                                               Not Used
 EEO Time Tracking System                                                                           Not Used
 Employee Suggestion Program                                                                       Removed
 Blackboard                                                                                         Not Used
 IVT Online Registration                                                                            Not Used
 IVT One-Touch Systems                                                                              Not Used
 Training Online Nomination System                                                                 Removed
 Travel Manager                                                                               Complete SSN
 Travel Credit Card Application                                                               Complete SSN
 Administrative Payments Information Network System                                           Complete SSN
 Finance Interactive Voice Response System                                                    Complete SSN
 Payments Claims and Enhanced Reconciliation System                                           Complete SSN
 Third Party Payment System                                                                   Asterisks Used
 Purchase Card Application                                                                    Complete SSN
 Tally Up System                                                                              Complete SSN
 Suitability Checks for Employees and Contractors                                             Complete SSN
 Comprehensive Integrity Review Process System                                                Complete SSN
 Audit Trail System                                                                                 Not Used
 Mainframe Time and Attendance System                                                         Asterisks Used
 Transmission of Time and Attendance Data                                                     Complete SSN
 Job Announcement Status Check                                                                    Removed*
 Awards Database                                                                                Last 4 Digits
 Official Personnel Folder Tracking System                                                      Last 4 Digits
 Human Resource Management Information System                                                 Complete SSN
 Employee Assistance Program Client Database                                                       Removed
 Reasonable Accommodation Tracking System                                                    Complete SSN*
 Disability Services Team Database                                                            Complete SSN
 Reasonable Accommodation Wizard                                                              Complete SSN
 Placement and Full Time Equivalent Pool Databases                                            Complete SSN
 Career Development Program Application                                                        Last 4 Digits*
 Official Union Time Tracking System                                                          Complete SSN
 Salary Overpayments                                                                                Not Used
 Equal Employment Opportunity Cases                                                                 Not Used
 Merit Systems Protection Board Cases                                                               Not Used
 Electronic Freedom of Information Act System                                    If Provided, Complete SSN
 Freedom of Information Act Processes                                            If Provided, Complete SSN

* After our review, the Agency reported updated information for these systems. In addition, SSA’s Office
of Training reported the complete SSNs for non-SSA employees is displayed on the Career Development
Program Application for the Senior Executive Service candidates. However, we did not verify the
accuracy of this information.
                                                                                 Appendix E
Social Security Administration Forms: Request and
Display of Employees’ Social Security Numbers
During our review, we determined whether certain forms used by the Social Security
Administration had been modified concerning the collection and display of its
employees’ Social Security numbers. Below are the forms we reviewed, and whether
the forms have been or will be modified.

                                                                        Requested       Implementation
    Form                                  Form                         Employees’           Date of
   Number                                 Title                         SSN Data          Revisions
 SSA-4392        Nomination for SSA Honor Award                       Last 4 Digits     Completed
 SSA-3136        Application to Participate in the Leave Transfer     Last 4 Digits     Completed
                 Program
 SSA-3555        SSA Employment Agreement                             Last 4 Digits     Completed
 SSA-1400        Salary Recommendation                                Last 4 Digits     Completed
 SSA-476         Request for Official Correspondence Address          Last 4 Digits     Completed
 SSA-231         PACS Performance Plan for Team Leaders               Last 4 Digits     Completed*
 SSA-232         PACS Performance Plan: Managers and                  Last 4 Digits     Completed*
                 Supervisors
 SSA-233         PACS Performance Plan: New Hires/Trainees            Last 4 Digits     Completed*
 SSA-5072        Request for Medical Treatment                        Last 4 Digits     May 2008*
 SSA-171U3       Recommendation for Monetary or Time Off Awards       Last 4 Digits     Discontinued
                                                                                        paper form in
                                                                                        November 2007*
 SSA-331         Performance Assessment for Non Supervisory           Last 4 Digits     Completed*
                 Employees
 SSA-332         Performance Assessment for Supervisory               Last 4 Digits     Completed*
                 Employees
 SSA-170         Employee Suggestion Form                             Not Requested     Completed
 SSA-2770        Information for reporting non-receipt of hard copy   Last 4 Digits*    Completed
                 salary check
 SSA-2771        Information for reporting non-receipt of Direct      Last 4 Digits*    Completed
                 Deposit/Electronic Funds Transfer payment
 SSA-3948        Request to Change to Part Time Employment            Not Requested     Completed*
 SSA-71          Application for Leave                                Not Requested     Completed*
 SSA-501-F3      Request for Reasonable Accommodation                 Complete SSN
 SSA-352-        Training Nomination and Authorization Form           Complete SSN
 U10
                 Interactive Video Teletraining Online Course         Not Requested
                 Registration Form
                 Equal Employment Opportunity Complaint               Not Requested
                 File/Complaint Form/Counseling File
                 Office of Disability Adjudication and Review In-     Not Requested
                 House Training Registration Form

* After our review, the Agency reported changes had been made to these forms. We did not verify the
accuracy of this information.
                                                                               Appendix F

Excerpt: The Social Security Administration’s
Implementation Plan to Eliminate the Unnecessary Use of
Social Security Numbers
Office of Management and Budget (OMB) Memorandum M-07-16, Safeguarding
Against and Responding to the Breach of Personally Identifiable Information, issued
May 22, 2007, requires that all agencies (1) review their use of Social Security numbers
(SSN) in agency systems and programs; (2) identify instances in which collection or use
of the SSN is superfluous; and (3) establish, within 120 days, a plan to eliminate
unnecessary collection and use of SSNs within 18 months. Generally, Personally
Identifiable Information refers to information that can be used to distinguish or trace an
individual's identity, such as his/her name, Social Security number, biometric records
etc., alone, or when combined with other personal or identifying information which is
linked or linkable to a specific individual such as date and place of birth, mother's
maiden name, etc.
                                                                                  1
In response to the OMB memorandum, on September 28, 2007, SSA issued a plan to
eliminate the unnecessary collection and use of SSNs. The following is an excerpt from
the plan that relates to employees’ SSN collection and use.

    Many personnel-related activities require interagency operability. Executive
    Order 9397 requires federal agencies to use SSNs as numerical identifiers for
    individuals in most federal records systems. Therefore, until the Executive
    Order is partially rescinded, and the Office of Personnel Management (OPM)
    develops the Universal Employee Identifier (UEID), it is not efficient to create an
    interim replacement identifier for employees. However, SSA has taken steps to
    remove the SSN from several of its personnel forms and processes.

       •   Payroll – Mainframe Time and Attendance System displays an
           employee’s SSN only when it is initially being entered into the system.
           After initial entry, asterisks are used to hide the SSN and records are
           accessed by using an employee’s name.

       •   Training – Uses an employee personal identification number (PIN)
           (6 digit number assigned to employees for systems access) to log on
           to the national Interactive Video Training network.          Prior to
           June 4, 2007, employees used their SSNs to log on to the system.

1
 As required by OMB Memorandum M-07-19, FY 2007 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, issued July 25, 2007, SSA’s plan for
safeguarding against and responding to the breach of PII was included as an appendix to the Agency’s
annual Federal Information System Management Act report, issued October 1, 2007


                                                F-1
•   Career Development Program Application – The employee identifier
    will be converted from the SSN to the employee PIN by March 2008.

•   Labor Relations – Grievance Tracking – The current application which
    uses the SSN will be phased out by September 30, 2007. The
    replacement application uses a combination of name and locator.

•   Employee Suggestion Form – An online electronic process which does
    not use the SSN is used to process 92% of suggestions. Since
    electronic submission is voluntary and 8% of employees still use the
    paper form, the paper form was revised to eliminate the SSN in
    August 2007.

•   Employee Assistance Program (EAP) Client Database – The current
    application which uses the SSN will be phased out by
    December 31, 2007. The new application uses the SSN only to assign
    a case number which will be used throughout the process.

•   Equal Employment Opportunity (EEO) Complaints – A new version of
    the iComplaint system which masks the SSN with asterisks was
    implemented on July 28, 2007. The SSN is used to propagate the
    correct and appropriate personnel data for a given employee into the
    Human Resource Management Information System (HRMIS). Also,
    the vendor of iComplaints will make accommodations for the UEID in a
    future version.

•   The Office of Human Resources (OHR) has reviewed all SSA forms on
    the Human Resources internal website to determine necessary versus
    unnecessary use of the SSN and is making revisions to remove the
    SSN on the following forms:

       o SSA-3948 – Request For Change to Part Time/Full-Time
         Employment – revision completed in June 2007
       o SSA-1400 – Salary Recommendation – mid September 2007
       o SSA-3555 – Employment Agreement – revision completed in
         August 2007
       o SSA-71 – Application for Leave – mid November 2007

•   OHR determined that it is no longer necessary to collect the entire
    SSN on the following forms but it is still necessary to collect a part of
    the SSN so that the data can be associated with the correct individual.
    The SSN will be truncated (last four digits only) on the following forms:

       o SSA-4392 – Nomination for SSA Honor Award – mid
         September 2007



                                     F-2
       o SSA-3136 – Application to Participate in the Leave Transfer
         Program – mid September 2007
       o SSA-2770 – Information for Reporting Non-Receipt of Hard
         Copy Salary Check – revision completed in August 2007
       o SSA-2771 – Information for Reporting Non-Receipt of Direct
         Deposit/ Electronic Fund Transfer (DD/EFT) Payments –
         revision completed in August 2007
       o SSA-476 – Request for Official Correspondence Address –
         revision completed in August 2007
       o SSA-171U3 – Recommendation for Monetary or Time Off
         Award – mid November 2007

•   SSA-5072 – Request for Medical Treatment – is directed to
    employees’ physicians, a non-Federal population. The form has to go
    through the Office of Publications and Logistics Management (OPLM)
    process and since it is a form that goes out to the public, OPLM has to
    send it to OMB for review, which usually takes nine months. OHR
    submitted its request to change this form in June 2007; it does not
    have a completion target. In the interim, SSA’s nurses are instructing
    employees to provide only the last four digits of their SSN prior to
    submitting it to their doctors. We have no control over what a
    physician’s office needs so it is conceivable that the physician’s office
    may require the full SSN. OHR is monitoring the process for
    compliance with the new instruction.

•   Employee Performance Plans

       o SSA currently has two major systems in use, the Performance
         Assessment and Communication System (PACS) which was
         implemented in October 2006 and the Pass/Fail system which
         has been in use since 1995. Forms SSA-230, 231, 232 and
         233 were created during the development of PACS to
         document employee performance. These forms collect the
         entire SSN. PACS was implemented in October 2006, as a
         web-based application which requires managers to input only
         the last four digits of an employee’s SSN. The paper SSA-
         231, 232 and 233 forms are available to be used in rare
         instances in which a supervisor has to issue a rating, but
         cannot access the web-based system. OHR plans to revise
         these forms to collect only the last four digits of the SSN by
         December 2007.




                                     F-3
       o Some of the union contracts for a small portion of SSA
         employees still require SSA to use a Pass/Fail system. The
         Pass/Fail system uses the SSA-331 and SSA-332 to
         document employee performance. These forms collect the
         entire SSN. OHR is working on revising both of these forms
         to collect only the last four digits of the SSN. The revisions
         should be completed by mid November 2007.

•   OHR has had a number of internal discussions about removing or
    masking the SSN from other applications, but it is deferring action until
    OPM proceeds with the UEID.




                                     F-4
                  Appendix G

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 28, 2008                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Follow-up: The Social Security
           Administration’s Internal Use of Employees’ Social Security Numbers" (A-13-07-27164)—
           INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendation are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         G-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "FOLLOW-UP: THE SOCIAL SECURITY ADMINISTRATION’S
INTERNAL USE OF EMPLOYEES’ SOCIAL SECURITY NUMBERS" (A-13-07-27164)


Thank you for the opportunity to review and comment on the draft report. Our response to the
recommendation is provided below.

Recommendation 1

Continue removing or minimizing the use of these Social Security numbers (SSN) in our systems
and forms.

Response

We agree. We will continue to remove or minimize the use of SSNs in our systems and forms
wherever possible.




                                             G-2
                                                                     Appendix H

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Director, General Management Audit Division, (410) 966-9365

   Randy Townsley, Audit Manager, (410) 966-1039

Acknowledgments

In addition to those named above:

   Linda Webester, Auditor-in-Charge

   Nicole Gordon, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-13-07-27164.
                           DISTRIBUTION SCHEDULE



Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External
Relations (OER), and Office of Technology and Resource Management (OTRM). To ensure compliance
with policies and procedures, internal controls, and professional standards, the OIG also has a
comprehensive Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                        Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches,
and presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
